■s-

J

APPENDIX TO THE PETITION FOR WRIT
OF CERTIORARI

Table of Contents

A. Superior Court Opinion, March 31, 2020

Al

B. Superior Court Reconsideration Granted, December 30, 2019

A13

C. Superior Court Opinion, December 17, 2019

A14

D. Trial Court Opinion, March 13, 2019

A26

E. Supreme Court Order Denying Allocatur, November 12, 2020

A38

F. Superior Court Opinion, January 6, 2016

A39

G. Trial Court Opinion, May 1, 2015

A43

9

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

v.

MELVIN STILLS
Appellant

No. 1266 EDA 2018

Appeal from the PCRA Order April 2, 2018,
in the Court of Common Pleas of Philadelphia County,
Criminal Division at No(s): CP-51-CR-0004532-2013.
BEFORE: OTT, J., KUNSELMAN, J., and McLAUGHLIN, J.
MEMORANDUM BY KUNSELMAN, J.:

FILED MARCH 31, 2020

Melvin Stills appeals from the order dismissing his petition filed pursuant
to the Post Conviction Relief Act ("PCRA"). We affirm.
The PCRA court summarized the relevant factual history as follows:
On January 29, 2013, around 6:00 p.m., Tahir Jackson was
walking on Fisher Street in Philadelphia with his girlfriend, Dereka
Sowell, and friend James Hargrove when he saw two men riding
toward them on bikes. Mr. Jackson testified that one man was
tall, wearing a black jacket and red hoodie, riding a black and
silver Mongoose bike, and the other man was shorter, wearing a
black hoodie, black jacket and riding a pink and purple child's bike.
Mr. Jackson identified the shorter man as [Stills], and the taller
man as codefendant Corey Battle. [Stills] jumped off his bike,
pulled out a black gun, and pointed it at Mr. Hargrove. Corey
Battle approached Mr. Jackson from behind and began to choke
him so hard that he was lifted off the ground and couldn't breathe.
Ms. Sowell also testified that [Stills] was the one with the gun and
Corey Battle choked Mr. Jackson from behind. [Stills] told Mr.
Hargrove, "whatever you got in your pocket, give it up," then took
Mr. Hargrove's cell phone. [Stills] then pointed the gun at Ms.
Sowell and said, "you need to back up before you get shot." Corey
Battle checked Mr. Jackson's pockets, and finding nothing, pushed
him to the ground, and grabbed Ms. Sowell. Mr. Jackson tried to

APPENDIX A

APP 1

get up to defend his girlfriend, but [Stills] pointed the gun at him
and said, "Stay there. You don't want to get shot." [Stills] stood
over Mr. Jackson, a few feet away while pointing the gun directly
at him. Both Mr. Jackson and Ms. Sowell testified that [Stills] did
not have anything covering his face. After not finding any items
on Ms. Sowell, [Stills] and Corey Battle got back on their bikes
and rode off.
Mr. Jackson called the police who arrived minutes later.
While the victims met with police, [Stills] rode past on his pink
and purple child's bike, along with another male.
Officer
Rosenbaum noticed a bulge on [Stills's] right hip area. Both men
fled after the officer tried to stop them, and during the chase,
Officer Rosenbaum saw [Stills] discard a firearm from his right hip
area, the same area he saw the bulge. Police later recovered the
weapon, and identified it as a black Beretta handgun. Mr. Jackson
and Ms. Sowell identified [Stills] as the man who robbed them.
[Stills] later gave a statement to detectives in which he admitted
that he and Corey Battle had robbed the victims at gunpoint.
PCRA Court Opinion, 3/13/19, at 3-4 (citations to the record omitted).
Following a non-jury trial, Stills was found guilty of three counts each of
robbery, terroristic threats, and theft by unlawful taking, and one count each
of criminal conspiracy, firearms not to be carried without a license, carrying
firearms on public streets or public property in Philadelphia, and persons not
to possess firearms.1 On August 7, 2014, Stills was sentenced to an aggregate
sentence of fifteen to thirty years of incarceration, followed by twelve years
of probation.

This Court affirmed the judgment of sentence.

See

Commonwealth v. Stills, 136 A.3d 1026 (Pa. Super. 2016) (unpublished
memorandum).

1 See 18 Pa.C.S.A. §§ 3701, 2706, 3921, 903, 6106, 6108, 6105.

APP 2

On September 9, 2016, Stills filed a pro se PCRA petition. The PCRA
court appointed Stills counsel, who filed an amended petition.

The

Commonwealth filed a motion to dismiss, after which Stills filed a supplement
to his petition. The PCRA court filed a Pa.R.Crim.P. 907 notice of its intent to
dismiss the petition without a hearing, to which Stills filed a response.

On

April 2, 2018, the PCRA court entered an order dismissing Stills' PCRA petition.
Stills filed a timely notice of appeal, and both Stills and the PCRA court
complied with Pa.R.A.P. 1925.
Stills raises the following issues for our review:

1. Did the [PCRA] court err when it dismissed [Stills' PCRA]
petition without an evidentiary hearing?
2. Did the [PCRA] court err when it dismissed as meritless [Stills']
claim that trial/appellate counsel was ineffective for failing to
identify the correct subsection of the robbery statute that
formed the basis of the charge and conviction?
3. Did the [PCRA] court err when it dismissed as meritless [Stills']
claim that trial/appellate counsel was ineffective for failing to
move for an acquittal due to the evidence not being sufficient
to meet the burden of robbery with infliction of serious bodily
injury?
4. Did the [PCRA] court err when it dismissed as meritless [Stills']
claim that trial/appellate counsel was ineffective for failing to
identify the correct subsection of robbery that the conspiracy
reflected?
5. Did the [PCRA] court err when it dismissed as meritless [Stills']
claim that trial/appellate counsel was ineffective for failing to
move for an acquittal due to the evidence not being sufficient
[to] show a conspiracy to commit a robbery with the infliction
of serious bodily injury?

APP 3

6. Did the [PCRA] court err when it dismissed as meritless [Stills']
claim that trial/appellate counsel was ineffective for failing to
properly execute the direct appeal due to misunderstanding his
client's robbery charge and conviction, among other errors?
7. Did the [PCRA] court err when it dismissed as meritless [Stills']
claim that trial/appellate counsel was ineffective for failing to
properly execute the direct appeal due to misunderstanding his
client's conspiracy charge and conviction?
Stills's Brief at 2-3 (issues reordered for ease of disposition).2
When addressing a challenge to the dismissal of a PCRA petition, our
standard of review is as follows:
We review an order dismissing a petition under the PCRA in
the light most favorable to the prevailing party at the PCRA level.
This review is limited to the findings of the PCRA court and the
evidence of record. We will not disturb a PCRA court's ruling if it
is supported by evidence of record and is free of legal error. This
Court may affirm a PCRA court's decision on any grounds if the
record supports it. Further, we grant great deference to the
factual findings of the PCRA court and will not disturb those
findings unless they have no support in the record. However, we
afford no such deference to its legal conclusions. Where the
petitioner raises questions of law, our standard of review is de
novo and our scope of review plenary.

*

Commonwealth v. Ford, 44 A.3d 1190, 1194 (Pa. Super. 2012) (citations
omitted)
Additionally, when a petitioner alleges trial counsel's ineffectiveness in
a PCRA petition, he must prove by a preponderance of the evidence that his

2 Regarding Stills' first issue, he concedes that the PCRA court did not err in
determining that no evidentiary hearing was warranted since there is no
dispute that Stills' counsel misapprehended the correct subsection of the
robbery statute that was indicated on the criminal information. See Stills'
Brief at 11. Thus, we need not address the issue.

APP 4

i

conviction or sentence resulted from ineffective assistance of counsel "which,
in the circumstances of the particular case, so undermined the truth­
determining process that no reliable adjudication of guilt or innocence could
have taken place."

42 Pa.C.S.A. § 9543(a)(2)(ii).

The petitioner must

demonstrate:
(1) that the underlying claim has arguable merit; (2) that no
reasonable basis existed for counsel's actions or failure to act; and
(3) that the petitioner suffered prejudice as a result of counsel's
error.
To prove that counsel's chosen strategy lacked a
reasonable basis, a petitioner must prove that an alternative not
chosen offered a potential for success substantially greater than
the course actually pursued. Regarding the prejudice prong, a
petitioner must demonstrate that there is a reasonable probability
that the outcome of the proceedings would have been different
but for counsel's action or inaction. Counsel is presumed to be
effective; accordingly, to succeed on a claim of ineffectiveness!;,]
the petitioner must advance sufficient evidence to overcome this
presumption.
Commonwealth v. Johnson, 139 A.3d 1257, 1272 (Pa. 2016) (internal
citations and quotation marks omitted). A failure to satisfy any prong of the
test for ineffectiveness will require rejection of the claim.

Commonwealth

v. Martin, 5 A.3d 177, 183 (Pa. 2010).
As all of Stills' issues of trial counsel ineffectiveness are related, we will
address them together.

In his second, third, fourth and fifth issues, Stills

contends that trial counsel was ineffective for misapprehending the specific
subsection of the robbery statute under which Stills was charged. According
to Stills, the criminal information, trial disposition form, order of sentence, and
all dockets indicate that he was charged with three counts of robbery under

APP 5

18 Pa.C.S.A. § 3701(a)(l)(i), which provides, in relevant part, that "[a]
person is guilty of robbery if, in the course of committing a theft, he . . . inflicts
serious bodily injury upon another[.]" Yet, trial counsel proceeded as if Stills
had been charged under subsection (a)(l)(ii), which provides "[a] person is
guilty of robbery if, in the course of committing a theft, he . . . threatens
another with or intentionally puts him in fear of immediate serious bodily
injury[.]" In other words, Stills was charged with actually committing serious
bodily injury during the theft, yet his counsel proceeded as if he was charged
with only threatening serious bodily injury during the theft.
Stills claims that trial counsel failed to read the docket or the information
to ascertain the specific robbery charge lodged against him, and never raised
the issue of a lack of serious bodily injury at the preliminary hearing. Stills
argues that his conviction under § 3701 (a)(l)(i) is not supported by the
evidence because no one was ever seriously injured.

He claims that one

complainant stated that she was not injured, and the other complainant
testified that he was briefly put in a choke hold by Stills' co-defendant, but
never stated that he was seriously injured. Stills contends that trial counsel
was ineffective for failing to move for an acquittal when the evidence failed to
show serious bodily injury.
For the same reasons, Stills contends that trial counsel was ineffective
for failing to apprehend that the conspiracy charge brought against him was
linked to the charges of robbery with infliction of serious bodily injury under

APP 6

§ 3701(a)(l)(i).

He claims that the Commonwealth was required to prove

that he and his co-defendant had a shared criminal objective to inflict serious
bodily injury during the course of a theft.

Stills argues that, based on the

complainants' testimony, no one was seriously injured. Stills therefore claims
that trial counsel was ineffective for failing to move for an acquittal because
the evidence was insufficient to prove the conspiracy charge.
Here, the PCRA court acknowledged that trial counsel failed to recognize
that the facts surrounding Stills' crimes did not match the subsection of the
robbery statute listed on the criminal information (/.e., § 3701 (a)(l)(i)).
However, it nevertheless determined that Stills' claims of trial counsel's
ineffectiveness lack merit because he failed to establish the prejudice prong
of the ineffectiveness test. The PCRA court determined that, had trial counsel
recognized the error at any time prior to the rendering of a verdict, the trial
court would have permitted the Commonwealth to amend the information to
list the correct subsection of the robbery statute (/.e., § 3701(a)(l)(ii)),3
pursuant to Pa.R.Crim.P. 564. 4 In reaching that conclusion, the PCRA court
reasoned as follows:

3 Both subsections 3701 (a)(l)(i) and 3701(a)(1)(H) are graded as felonies of
the first-degree.
4 Rule 564 provides, in relevant part: "The court may allow an information to
be amended, provided that the information as amended does not charge
offenses arising from a different set of events and that the amended charges

APP 7

Keeping in mind that the purpose of Rule 564 is to place a
defendant on notice regarding his alleged criminal conduct so he
has a fair opportunity to prepare a defense, [Stills'] arguments of
ineffectiveness fail. Yes, a mistake was made as to the subsection
of the robbery statute, but to offer [Stills] relief on that basis,
under the facts of this case, would be to elevate form over
substance.
Factors to consider in determining whether a defendant was
prejudiced by an amendment include:
(1) whether the amendment changes the factual scenario
supporting the charges; (2) whether the amendment adds
new facts previously unknown to the defendant; (3) whether
the entire factual scenario was developed during a
preliminary hearing; (4) whether the description of the
charges changed with the amendment; (5) whether a change
in defense strategy was necessitated by the amendment;
and (6) whether the timing of the Commonwealth's request
for amendment allowed for ample notice and preparation.
Com. v. Grekis, 411 Pa. Super. 513, 601 A.2d 1284, 1292
(1992).
Applying the instant set of facts to the above factors it is
clear that [Stills] was not prejudiced by the error of subsection
because (1) the factual scenario supporting the charges never
changed; (2) no new facts were added that were previously
■unknown to [Stills]; (3) the entire factual scenario was developed
not only during a preliminary hearing, but also through the
discovery that was turned over to [Stills] on May 21, 2013 and
included police interviews with each of the three victims, in
addition to Corey Battle and [Stills]; (5) the Commonwealth tried
the case, and [Stills] defended the case as if the bills of
information had already been amended to reflect [18 Pa.C.S.A. §
3701(a)(l)(ii), which is the subsection of the robbery statute
which requires] a threat of serious bodily injury; and (6) it is
immaterial that the Commonwealth failed to amend the
information, as [Stills] had ample notice and preparation that the
case was about him threatening serious bodily harm, as not only
are not so materially different from the original charge that the defendant
would be unfairly prejudiced."

APP 8

were those the facts at the preliminary hearing, and in the
discovery, but he was also charged with terroristic threats. So
even if the court found that subsection (a)(l)(i) was materially
different than subsection(a)(l)(ii), [Stills] still cannot show
prejudice because he was placed on notice regarding his alleged
criminal conduct, and had a fair opportunity to prepare a defense.
In this instance, had counsel caught the error in subsection,
this [cjourt would have allowed the Commonwealth to change the
information based on the above analysis. This would have
corrected a technical error, but would not have changed the
outcome of the trial. If defense counsel had moved for an
acquittal on that basis, this [c]ourt would have denied that
motion, and allowed the Commonwealth to amend the
information, based on the above analysis.
PCRA Court Opinion, 3/13/19, at 7-9. The PCRA court similarly determined
that any pre-verdict challenge by trial counsel to the conspiracy charge would
have failed since Stills "was not misled as to the charges against him, not
precluded from anticipating the Commonwealth's proof, and no substantial
right was impaired." Id. at 9-10.
The record supports the PCRA court's determination that Stills failed to
demonstrate that he was prejudiced by trial counsel's failure to seek an
acquittal on the basis that the evidence did not establish that he inflicted
serious bodily injury or conspired to inflict serious bodily injury. The record
also supports the PCRA court's determination that, had trial counsel raised the
issue, the trial court would have permitted the Commonwealth to amend the
criminal information to reflect the correct subsection of the robbery statute.
Such an amendment would have been appropriate because Stills was afforded
abundant notice from the outset of the criminal proceedings that the evidence

APP 9

V

supported a finding that he had conspired with his co-defendant to threaten
the victims with serious bodily injury and had, in fact, threatened them with
serious bodily injury.

Thus, Stills' claims pertaining to trial counsel's

ineffectiveness entitle him to no relief.
However, Stills additionally disputes the PCRA court's dismissal of his
claims that appellate counsel was ineffective. Stills points out that his trial
counsel also represented him in his direct appeal. According to Stills, direct
appeal counsel continued to identify and argue the wrong subsection of the
robbery statute in his appellate filings.

Stills claims that, had appellate

counsel argued sufficiency under the correct robbery subsection on direct
appeal, this Court would have recognized that the evidence was insufficient to
support Stills' robbery and conspiracy convictions due to a lack of serious
bodily injury.

Thus, Stills claims that his direct appeal counsel effectively

denied Stills appellate review of his convictions.5

5 Stills also argues that appellate counsel offered no argument on the second
issue he raised on direct appeal, resulting in waiver of that issue. Stills' Brief
at 15. Stills does not identify in his PCRA appellate brief, the second issue
raised in his direct appeal; however, our review discloses that the second issue
that appellate counsel raised in Stills' direct appeal challenged the identity of
the perpetrator. See Stills, 136 A.3d 1026 (unpublished memorandum at
*1). This particular claim of ineffectiveness is not properly before us in this
appeal, as it was not raised in Stills' concise statement or identified in his
statement of questions presented. See Commonwealth v. Lord, 719 A.2d
306, 309 (Pa. 1998) (holding that if an appellant is directed to file a concise
statement of matters to be raised on appeal pursuant to Pa.R.A.P. 1925(b),
any issues not raised in that statement are waived); see also Pa.R.A.P.
302(a) (providing that issues not raised in the lower court are waived and

APP 10

Notably, the certified record does not contain copies of the filings
authored by appellate counsel in Stills' direct appeal. See Commonwealth
v. Muntz, 630 A.2d 51, 55 (Pa. Super. 1993) (for the purposes of an appeal,
it is the responsibility of the appellant to offer a complete record for our
review). Based on our precedent, where a claim is dependent upon materials
not provided in the certified record; that claim is considered waived. Id. Here,
Stills failed to present the filings made by direct appeal counsel to the PCRA
court, and to ensure that those filings were made part of the PCRA court
record.

Accordingly, his ineffectiveness claim pertaining to direct appeal

counsel is waived.6

cannot be raised for the first time on appeal); See Pa.R.A.P 2116(a) (providing
that "[n]o question will be considered unless it is stated in the statement of
questions involved or is fairly suggested thereby.").
6 Importantly, the appellate brief filed by direct appeal counsel was only filed
in this Court in connection with Stills' direct appeal. It had never been filed in
the lower court, and thus ;was not reflected on the lower court docket. As'
such, it was incumbent upon Stills to present that filing to the PCRA court in
support of his ineffectiveness claim when he filed his PCRA petition, and then
to ensure that that a copy of that filing was made a part of the PCRA court
record below. Notably, Stills belatedly recognized this omission after filing
an appeal of the PCRA court's denial of relief. During the pendency of this
appeal, he requested leave to supplement the certified record with a copy of
the brief filed by direct appeal counsel. We properly denied his request
because the brief had never been presented to the PCRA court, nor made a
part of the PCRA court record. See Pa.R.A.P, 1921 (providing that "[t]he
original papers and exhibits filed in the lower court . . . and a certified copy of
the docket entries prepared by the clerk of the lower court shall constitute the
record on appeal in all cases."). Because direct appeal counsel's brief was not
presented to the PCRA court, or included in any filing in the PCRA court, we
may not consider it in this appeal. See id.; see also Commonwealth v.

APP 11

.i

Order affirmed.
Judge McLaughlin joins this memorandum.
Judge Ott did not participate in this memorandum.
Judgment Entered.

)JL
Joseph D. Seletyn, EsdK
Prothonotary

Date: 3/31/2020

Bracalielly, 658 A.2d 755, 763 (Pa. 1995) (holding that "appellate courts
may only consider facts which have been duly certified in the record on
appeal").

APP 12

Filed 01/27/2020

IN THE SUPERIOR COURT OF PENNSYLVANIA
EASTERN DISTRICT

COMMONWEALTH OF PENNSYLVANIA

No. 1266 EDA 2018

v.

MELVIN STILLS
Appellant

ORDER

IT IS HEREBY ORDERED:
THAT upon consideration of the application for reconsideration filed December
30, 2019 in this appeal, the Court hereby grants panel reconsideration;
THAT the decision of this Court filed December 17, 2019, is hereby withdrawn;
and
THAT the parties need not file any additional briefs.
PER CURIAM

APPENDIX B

APP 13

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

v.

MELVIN STILLS
Appellant

No. 1266 EDA 2018

Appeal from the PCRA Order April 2, 2018,
in the Court of Common Pleas of Philadelphia County,
Criminal Division at No(s): CP-51-CR-0004532-2013.
BEFORE: OTT, J., KUNSELMAN, J., and McLAUGHLIN, J.
MEMORANDUM BY KUNSELMAN, J.:

FILED DECEMBER 17, 2019

Melvin Stills appeals from the order dismissing his petition filed pursuant
to the Post Conviction Relief Act ("PCRA"). We affirm.
The PCRA court summarized the relevant factual history as follows:
On January 29, 2013, around 6:00 p.m., Tahir Jackson was
walking on Fisher Street in Philadelphia with his girlfriend, Dereka
Sowell, and friend James Hargrove when he saw two men riding
toward them on bikes. Mr. Jackson testified that one man was
tall, wearing a black jacket and red hoodie, riding a black and
silver Mongoose bike, and the other man was shorter, wearing a
black hoodie, black jacket and riding a pink and purple child's bike.
Mr. Jackson identified the shorter man as [Stills], and the taller
man as codefendant Corey Battle. [Stills] jumped off his bike,
pulled out a black gun, and pointed it at Mr. Hargrove. Corey
Battle approached Mr. Jackson from behind and began to choke
him so hard that he was lifted off the ground and couldn't breathe.
Ms. Sowell also testified that [Stills] was the one with the gun and
Corey Battle choked Mr. Jackson from behind. [Stills] told Mr.
Hargrove, "whatever you got in your pocket, give it up," then took
Mr. Hargrove's cell phone. [Stills] then pointed the gun at Ms.
Sowell and said, "you need to back up before you get shot." Corey
Battle checked Mr. Jackson's pockets, and finding nothing, pushed
him to the ground, and grabbed Ms. Sowell. Mr. Jackson tried to

APPENDIX C

APP 14

get up to defend his girlfriend, but [Stills] pointed the gun at him
and said, "Stay there. You don't want to get shot." [Stills] stood
over Mr. Jackson, a few feet away while pointing the gun directly
at him. Both Mr. Jackson and Ms. Sowell testified that [Stills] did
not have anything covering his face. After not finding any items
on Ms. Sowell, [Stills] and Corey Battle got back on their bikes
and rode off.
Mr. Jackson called the police who arrived minutes later.
While the victims met with police, [Stills] rode past on his pink
Officer
and purple child's bike, along with another male.
Rosenbaum noticed a bulge on [Stills's] right hip area. Both men
fled after the officer tried to stop them, and during the chase,
Officer Rosenbaum saw [Stills] discard a firearm from his right hip
area, the same area he saw the bulge. Police later recovered the
weapon, and identified it as a black Beretta handgun. Mr. Jackson
and Ms. Sowell identified [Stills] as the man who robbed them.
[Stills] later gave a statement to detectives in which he admitted
that he and Corey Battle had robbed the victims at gunpoint.
PCRA Court Opinion, 3/13/19, at 3-4 (citations to the record omitted).
Following a non-jury trial, Stills was found guilty of three counts each of
robbery, terroristic threats, and theft by unlawful taking, and one count each
of criminal conspiracy, firearms not to be carried without a license, carrying
firearms on public streets or public property in Philadelphia, and persons not
to possess firearms.1 On August 7, 2014, Stills was sentenced to an aggregate
sentence of fifteen to thirty years of incarceration, followed by twelve years
of probation.

This Court affirmed the judgment of sentence.

See

Commonwealth v. Stills, 136 A.3d 1026 (Pa. Super. 2016) (unpublished
memorandum).

1 See 18 Pa.C.S.A. §§ 3701, 2706, 3921, 903, 6106, 6108, 6105.

APP 15

On September 9, 2016, Stills filed a pro se PCRA petition. The PCRA
court appointed Stills counsel, who filed an amended petition.

The

Commonwealth filed a motion to dismiss, after which Stills filed a supplement
to his petition. The PCRA court filed a Pa.R.Crim.P. 907 notice of its intent to
dismiss the petition without a hearing, to which Stills filed a response.

On

April 2, 2018, the PCRA court entered an order dismissing Stills's PCRA
petition. Stills filed a timely notice of appeal, and both Stills and the PCRA
court complied with Pa.R.A.P. 1925.
Stills raises the following issues for our review:
1. Did the [PCRA] court err when it dismissed Stills's [PCRA]
petition without an evidentiary hearing?
2. Did the [PCRA] court err when it dismissed as meritless Stills's
claim that trial/appellate counsel was ineffective for failing to
identify the correct subsection of the robbery statute that
formed the basis of the charge and conviction?
3. Did the [PCRA] court err when it dismissed as meritless Stills's
claim that trial/appellate counsel was ineffective for failing to
move for an acquittal due to the evidence not being sufficient
to meet the burden of robbery with infliction of serious bodily
injury?
4. Did the [PCRA] court err when it dismissed as meritless Still's
claim that trial/appellate counsel was ineffective for failing to
properly execute the direct appeal due to misunderstanding his
client's robbery charge and conviction, among other errors?
5. Did the [PCRA] court err when it dismissed as meritless Still's
claim that trial/appellate counsel was ineffective for failing to
identify the correct subsection of robbery that the conspiracy
reflected?
6. Did the [PCRA] court err when it dismissed as meritless Stills's
claim that trial/appellate counsel was ineffective for failing to

APP 16

move for an acquittal due to the evidence not being sufficient
[to] show a conspiracy to commit a robbery with the infliction
of serious bodily injury?
7. Did the [PCRA] court err when it dismissed as meritless Stills's
claim that trial/appellate counsel was ineffective for failing to
properly execute the direct appeal due to misunderstanding his
client's conspiracy charge and conviction?
Stills's Brief at 2-3.2
When addressing a challenge to the dismissal of a PCRA petition, our
standard of review is as follows:
We review an order dismissing a petition under the PCRA in
the light most favorable to the prevailing party at the PCRA level.
This review is limited to the findings of the PCRA court and the
evidence of record. We will not disturb a PCRA court's ruling if it
is supported by evidence of record and is free of legal error. This
Court may affirm a PCRA court's decision on any grounds if the
record supports it. Further, we grant great deference to the
factual findings of the PCRA court and will not disturb those
findings unless they have no support in the record. However, we
afford no such deference to its legal conclusions. Where the
petitioner raises questions of law, our standard of review is de
novo and our scope of review plenary.
Commonwealth v. Ford, 44 A.3d 1190, 1194 ,(Pa. Super. 2012) (citations .
omitted)
Additionally, when a petitioner alleges trial counsel's ineffectiveness in
a PCRA petition, he must prove by a preponderance of the evidence that his

2 Regarding Stills's first issue, he concedes that the PCRA court did not err in
determining that no evidentiary hearing was warranted since there is no
dispute that Stills's counsel misapprehended the correct subsection of the
robbery statute that was indicated on the criminal information. See Stills's
Brief at 11. Thus, we need not address the issue.

APP 17

*•)

conviction or sentence resulted from ineffective assistance of counsel "which,
in the circumstances of the particular case, so undermined the truth­
determining process that no reliable adjudication of guilt or innocence could
have taken place."

42 Pa.C.S.A. § 9543(a)(2)(ii).

The petitioner must

demonstrate:
(1) that the underlying claim has arguable merit; (2) that no
reasonable basis existed for counsel's actions or failure to act; and
(3) that the petitioner suffered prejudice as a result of counsel's
error.
To prove that counsel's chosen strategy lacked a
reasonable basis, a petitioner must prove that an alternative not
chosen offered a potential for success substantially greater than
the course actually pursued. Regarding the prejudice prong, a
petitioner must demonstrate that there is a reasonable probability
that the outcome of the proceedings would have been different
but for counsel's action or inaction. Counsel is presumed to be
effective; accordingly, to succeed on a claim of ineffectiveness!;,]
the petitioner must advance sufficient evidence to overcome this
presumption.
Commonwealth v. Johnson, 139 A.3d 1257, 1272 (Pa. 2016) (internal
citations and quotation marks omitted). A failure to satisfy any prong of the
test for ineffectiveness will require rejection of the claim.

Commonwealth

v. Martin, 5 A.3d 177, 183 (Pa. 2010).
As all of Stills's issues are related, we will address them together.

In

his second, third and fourth issues, Stills contends that his trial counsel was
ineffective for misapprehending the specific subsection of the robbery statute
under which Stills was charged.

According to Stills, the information, trial

disposition form, order of sentence, and all dockets indicate that he was
charged with three counts of robbery under 18 Pa.C.S.A. § 3701(a)(l)(i),

APP 18

....

which provides, in relevant part, that "[a] person is guilty of robbery if, in the
course of committing a theft, he . . . inflicts serious bodily injury upon
another[.]"

Stills claims that his counsel failed to read the docket or the

information to ascertain the specific robbery charge lodged against him, and
never raised the issue of a lack of serious bodily injury at the preliminary
hearing.

Stills argues that his conviction is not supported by the evidence

because no one was ever seriously injured. He claims that one complainant
stated that she was not injured, and the other complainant testified that he
was briefly put in a choke hold by Stills's co-defendant, but never stated that
he was seriously injured. Stills contends that trial counsel was ineffective for
failing to move for an acquittal when the evidence failed to show serious bodily
injury.
In his remaining issues, Stills contends that the conspiracy charge
brought against him was linked to the charges of robbery with infliction of
serious bodily injury.

He therefore claims that the Commonwealth was

required to prove that he and his co-defendant had a shared criminal objective
to inflict serious bodily injury during the course of a theft. Stills argues that,
based on the complainants' testimony, no one was seriously injured.

From

this perspective, Stills claims that the evidence was insufficient to prove the
conspiracy charge.
Here, the PCRA court acknowledged that trial counsel failed to recognize
that the facts surrounding Stills's crimes did not match the subsection of the

APP 19

robbery statute listed on the criminal information (/'.e., § 3701(a)(l)(i)).
However, it nevertheless determined that Stills's claims of trial counsel's
ineffectiveness lack merit because he failed to establish the prejudice prong
of the ineffectiveness test. The PCRA court determined that, had trial counsel
recognized the error at any time prior to the rendering of a verdict, the trial
court would have permitted the Commonwealth to amend the information to
list the correct subsection of the robbery statute (/.e., § 3701(a)(l)(ii)),3
pursuant to Pa.R.Crim.P. 564.4 In reaching that conclusion, the PCRA court
reasoned as follows:
Keeping in mind that the purpose of Rule 564 is to place a
defendant on notice regarding his alleged criminal conduct so he
has a fair opportunity to prepare a defense, [Stills's] arguments
of ineffectiveness fail. Yes, a mistake was made as to the
subsection of the robbery statute, but to offer [Stills] relief on that
basis, under the facts of this case, would be to elevate form over
substance.
Factors to consider in determining whether a defendant was
prejudiced by an amendment include:
(1) whether the amendment changes the factual scenario
supporting the charges; (2) whether the amendment adds
new facts previously unknown to the defendant; (3) whether
3 Pursuant to subsection 3701(a)(l)(ii), "A person is guilty of robbery if, in the
course of committing a theft, he . . . threatens another with or intentionally
puts him in fear of immediate serious bodily injury[.]" Both subsections
3701(a)(l)(i) and 3701(a)(l)(ii) are graded as felonies of the first-degree.
4 Rule 564 provides, in relevant part: "The court may allow an information to
be amended, provided that the information as amended does not charge
offenses arising from a different set of events and that the amended charges
are not so materially different from the original charge that the defendant
would be unfairly prejudiced."

APP 20

A

the entire factual scenario was developed during a
preliminary hearing; (4) whether the description of the
charges changed with the amendment; (5) whether a change
in defense strategy was necessitated by the amendment;
and (6) whether the timing of the Commonwealth's request
for amendment allowed for ample notice and preparation.
Com. v. Grekis, 411 Pa. Super. 513, 601 A.2d 1284, 1292
(1992).
Applying the instant set of facts to the above factors it is
clear that [Stills] was not prejudiced by the error of subsection
because (1) the factual scenario supporting the charges never
changed; (2) no new facts were added that were previously
unknown to [Stills]; (3) the entire factual scenario was developed
not only during a preliminary hearing, but also through the
discovery that was turned over to [Stills] on May 21, 2013 and
included police interviews with each of the three victims, in
addition to Corey Battle and [Stills]; (5) the Commonwealth tried
the case, and [Stills] defended the case as if the bills of
information had already been amended to reflect [18 Pa.C.S.A. §
3701(a)(l)(ii), which is the subsection of the robbery statute
which requires] a threat of serious bodily injury; and (6) it is
immaterial that the Commonwealth failed to amend the
information, as [Stills] had ample notice and preparation that the
case was about him threatening serious bodily harm, as not only
were those the facts at the preliminary hearing, and in the
discovery, but he was also charged with terroristic threats. So
even if the court found that subsection (a)(l)(i) was materially
different than subsection(a)(l)(ii), [Stills] still cannot show
prejudice because he was placed on notice regarding his alleged
criminal conduct, and had a fair opportunity to prepare a defense.
In this instance, had counsel caught the error in subsection, .
this [c]ourt would have allowed the Commonwealth to change the
information based on the above analysis. This would have
corrected a technical error, but would not have changed the
outcome of the trial. If defense counsel had moved for an
acquittal on that basis, this [c]ourt would have denied that
motion, and allowed the Commonwealth to amend the
information, based on the above analysis.

APP 21

PCRA Court Opinion, 3/13/19, at 7-9. The PCRA court similarly determined
that any pre-verdict challenge by trial counsel to the conspiracy charge would
have failed since Stills "was not, misled as to the charges against him, not
precluded from anticipating the Commonwealth's proof, and no substantial
right was impaired." Id. at 9-10.
The record supports the PCRA court's determination that Stills failed to
demonstrate that he was prejudiced by trial counsel's failure to seek an
acquittal on the basis that the evidence did not establish that he inflicted
serious bodily injury or conspired to inflict serious bodily injury. The record
also supports the PCRA court's determination that, had trial counsel raised the
issue, the trial court would have permitted the Commonwealth to amend the
criminal information to reflect the correct subsection of the robbery statute.
Such an amendment would have been appropriate because Stills was afforded
abundant notice from the outset of the criminal proceedings that the evidence
supported a finding that he had conspired with his co-defendant to threaten
the victims with serious bodily injury and had, in fact, threatened them with
serious bodily injury.

Thus, Stills's claims pertaining to trial counsel's

ineffectiveness entitle him to no relief.
However, Stills additionally disputes the PCRA court's dismissal of his
claims that appellate counsel was ineffective.

Stills points out that his trial

counsel also represented him in his direct appeal. In that capacity, counsel
continued to identify and argue the wrong subsection of the robbery statute.

APP 22

.*

Stills claims that, had appellate counsel argued sufficiency under the correct
robbery subsection on direct appeal, this Court would have recognized that
the evidence did not support Stills's robbery convictions due to a lack of
serious bodily injury.

Thus, Stills claims that his direct appeal counsel

effectively denied Stills appellate review of his robbery convictions.5

He

additionally claims that, had counsel challenged the sufficiency of the
conspiracy charge on direct appeal, the charges may have been overturned.
Notably, Stills has not included in the certified record copies of the filings
authored by appellate counsel in Stills's,direct appeal; thus, we are unable to
evaluate them. See Commonwealth v. Muntz, 630 A.2d 51, 55 (Pa. Super.
1993) (for the purposes of an appeal, it is the responsibility of the appellant
to offer a complete record for our review). Based on our precedent, where a

5 Stills also argues that appellate counsel offered no argument on the second
issue he raised on direct appeal, resulting in waiver of that issue. Stills's Brief
at 15. Stills does not identify in his PCRA Appellate brief, the second issue
from his direct appeal; however, our review discloses that the second issue
that appellate counsel raised in Stills's direct appeal challenged the identity of
the perpetrator. See Stills, 136 A.3d 1026 (unpublished memorandum at
*1). This particular claim of ineffectiveness is not properly before us in this
appeal, as it was not raised in Stills's concise statement or identified in his
statement of questions presented. See Commonwealth v. Lord, 719 A.2d
306, 309 (Pa. 1998) (holding that if an appellant is directed to file a concise
statement of matters to be raised on appeal pursuant to Pa.R.A.P. 1925(b),
any issues not raised in that statement are waived); see also Pa.R.A.P.
302(a) (providing that issues not raised in the lower court are waived and
cannot be raised for the first time on appeal); See Pa.R.A.P 2116(a) (providing
that "[n]o question will be considered unless it is stated in the statement of
questions involved or is fairly suggested.thereby.").

APP 23

I

\

;;

I
claim is dependent upon materials not provided in the certified record, that
claim is considered waived. Id.
However, since we have the benefit of this Court's disposition of Stills's
direct appeal, Stills, 136 A.3d 1026 (unpublished memorandum), we will
address this issue.

In our prior decision, this Court indicated that Stills

challenged "[w]hether the evidence was sufficient to convict [Stills] of three
counts of Robbery F( 1), Conspiracy and related charges when the
Commonwealth failed to prove beyond a reasonable doubt that there
was a threat of serious bodily injury and/or any serious injury to any
of the victims." Id. (unpublished memorandum at *1) (emphasis added).
Based on the framing of this issue, it is clear that appellate counsel challenged
both the robbery and conspiracy convictions on the basis that the evidence
was insufficient to establish that Stills either threatened the victims with
serious bodily injury, or inflicted serious bodily injury. See id.6 Accordingly,
Stills's claims that appellate counsel was ineffective warrant no relief.

6 Moreover, in considering Stills direct appeal, this Court expressly determined
that the evidence of record was sufficient to establish that Stills threatened
the victims with serious bodily injury during the course of a theft, noting as
follows:
The trial court's opinion comprehensively discusses and properly
disposes of the questions presented. (See Trial Court Opinion,
filed May 1, 2015, at 4-9 (un-paginated)) (finding: (1) Victims Mr.
Jackson and Ms. Sowell testified that [Stills] pointed gun at third
victim, Mr. Hargrove, and took Mr. Hargrove's cell phone; then,
[Stills] pointed gun at Mr. Jackson and Ms. Sowell and threatened

APP 24

\

»

Order affirmed.
Judgment Entered.

uL7

Joseph D. Seletyn, Esq2
Prothonotary

Date: 12/17/19

to shoot them; evidence was sufficient to sustain [Stills's] robbery
convictions related to all three Victims, where [Stills]
threatened Mr. Jackson and Ms. Sowell during course of
theft and intentionally put all Victims in fear of serious
bodily injury.
Id. (unpublished memorandum at *2-3) (emphasis added, footnote omitted).

APP 25

V
r 11 r. 11

:•

IN THE COURT OF COMMON PLEAS
FOR THE COUNTY OF PHILADELPHIA
CRIMINAL TRIAL DIVISION

.-

■•••,!■

20!9 MAR 13 PH 2- 41
■:

NO.: CP-51-CR-4532-2013

COMMONWEALTH
OF PENNSYLVANIA

■

f:-:c5;y)s
-'-friCT

Superior Court No.:
1266 EDA 2018

v.
MELVIN STILLS

s

OPINION

ANHALT, J.
Appellant in the above-captioned matter appeals this Court’s judgment regarding its
dismissal of his Post-Conviction Relief Act (“PCRA”) petition. This Court submits the following
Opinion in accordance with the requirements of Pa.R.A.P. 1925(a).
Appellant’s PCRA Petition lacks merit. As such, Appellant’s petition was rightfully
dismissed and the judgment should be affirmed.
CASE HISTORY
Following a waiver trial in front of this Court on May 30,2014, Appellant was found
guilty of three counts of robbery, one count of conspiracy, three counts of terroristic threats,
!

three counts of theft, and violations of the Uniform Firearms Act §6105, §6106, and §6108. On
August 7, 2014, Appellant was sentenced to an aggregate sentence of fifteen to thirty years
incarceration with a twelve year probationary tail. The Superior Court affirmed the judgment of
sentence on January 6,2016. Appellant filed a pro se PCRA Petition on September 9, 2016.
Current counsel was appointed on November 4,2016, and submitted an Amended PCRA
Petition on June 7, 2017. The Commonwealth filed a motion to dismiss, after which Appellant

APPENDIX D

APP 26

filed a supplement to his petition. This Court filed a 907 Notice of Intent to Dismiss on February
13,2018, to which Appellant filed a response on March 4, 2018.
On April 2,2018, the Court formally dismissed Appellant’s PCRA Petition as without
merit.
On April 26, 2018, Appellant filed a timely notice of appeal, and on June 26, 2018,
Appellant filed a timely Statement of Errors Complained of on Appeal pursuant to Pa.R.A.P.
1925(b). Appellant raises the following issues on appeal:
1. Did the trial court err when it dismissed the Appellant’s Post Conviction Relief Act
petition without an evidentiary hearing?
2. Did the trial court err when it dismissed as meritless Appellant’s claim that
trial/appellate counsel was ineffective for:
a. failing to identify the correct subsection of the robbery statute that formed the
basis of the charge and conviction?
b. failing to move for an acquittal due to the evidence not being sufficient to
meet the burden of robbery with infliction of serious bodily injury?
c. failing to properly execute the direct appeal due to misunderstanding his
client’s robbery charge and conviction among other errors?
d. failing to identify the correct subsection of the robbery statute that the
conspiracy reflected?
e. failing to move for an acquittal due to the evidence not being sufficient to
show a conspiracy to commit a robbery with the infliction of serious bodily
injury?

2

APP 27
■•■V

1

f. failing to properly execute the direct appeal due to misunderstanding his
client’s conspiracy charge and conviction?

FACTUAL HISTORY
On January 29,2013, around 6:00 p.m., Tahir Jackson was walking on Fisher Street in
Philadelphia with his girlfriend, Dereka Sowell, and friend James Hargrove when he saw two
men riding toward them on bikes. N. I 5/30/14 at 11-13. Mr. Jackson testified that one man was
tall, wearing a black jacket and red hoodie, riding a black and silver Mongoose bike, and the
other man was shorter, wearing a black hoodie, black jacket and riding a pink and purple child’s
bike. Id. at 32-34. Mr. Jackson identified the shorter man as Appellant, and the taller man as co­
defendant Corey Battle.1 Id. at 34, NT. 4/2/13 at 15. Appellant jumped off his bike, pulled out a
black gun, and pointed it at Mr. Hargrove. Corey Battle approached Mr. Jackson from behind
and began to choke him so hard that he was lifted off the ground and couldn’t breathe. Id. at 1218,27,45, 58. Ms. Sowell also testified that Appellant was the one with the gun and Corey
Battle choked Mr. Jackson from behind. Id. at 45.
Appellant told Mr. Hargrove, “whatever you got in your pocket, give it up,” then took
Mr. Hargrove’s cell phone. Id. at 19. Appellant then pointed the gun at Ms. Sowell and said,
“you need to back up before you get shot.” Id. at 46. Corey Battle checked Mr. Jackson’s
pockets, and finding nothing, pushed him to the ground, and grabbed Ms. Sowell. Id. at 20-21.
Mr. Jackson tried to get up to defend his girlfriend, but Appellant pointed the gun at him and
said, “Stay there. You don’t want to get shot.” Id at 22. Appellant stood over Mr. Jackson, a few
feet away while pointing the gun directly at him. Id. Both Mr. Jackson and Ms. Sowell testified
1 On July 9,2013, co-defendant Mr. Battle entered a negotiated guilty plea to robbery - inflict serious bodily injury,
18 Pa. C.S. § 3701(a){l)(i), and conspiracy to commit robbery serious bodily injury, 18 Pa. C.S. § 903.

3

APP 28

\

that Appellant did not have anything covering his face. Id. at 24, 50. After not finding any items
on Ms. Sowell, Appellant and Corey Battle got back on their bikes and rode off. Id. at 24.
Mr. Jackson called the police who arrived minutes later. Id. at 25-26. While the victims
met with police, Appellant rode past on his pink and purple child’s bike, along with another
male. Id. at 58,61. Officer Rosenbaum noticed a bulge on Appellant’s right hip area. Id. Both
men fled after the officer tried to stop them, and during the chase, Officer Rosenbaum saw
Appellant discard a firearm from his right hip area, the same area he saw the bulge. Id. at 59-60.
Police later recovered the weapon, and identified it as a black Beretta handgun. Id. at 58-59. Mr.
Jackson and Ms. Sowell identified Appellant as the man who robbed them. Appellant later gave
a statement to detectives in which he admitted that he and Corey Battle had robbed the victims at
gunpoint. Id. at 27-30,49, 57-59.
DISCUSSION

I.

The trial court properly dismissed Appellant’s PCRA Petition without an
evidentiary hearing because there was no genuine issue of material fact.
Pursuant to Rule 907(1), if after reviewing the PCRA Petition, any filings by the

petitioner and Commonwealth, and other matters of record relating to the claim, the judge is
satisfied that there are no “genuine issues concerning any material fact and that the defendant is
not entitled to post-conviction collateral relief,” the judge shall give notice to the parties of the
intention to dismiss the petition and shall state in the notice the reasons for the dismissal. Pa. R.
Crim. P. 907(1).
In his PCRA Petition, Appellant alleged that trial counsel failed to properly identify the
correct subsection of the robbery statute, and because of that, was ineffective in various ways.

4

APP 29

\

The Commonwealth admits that the subsection was misidentified. Therefore, there is not a
factual issue as to the subsection, but rather, legal issues about if that error caused
ineffectiveness. The PCRA Court properly dismissed the petition without an evidentiary hearing
because there was no material fact at issue, and the legal issues did not merit relief.

II.

The trial court properly dismissed the PCRA Petition as meritless because
Appellant failed to show the requisite prejudice.
The essential question Appellant raises is if his counsel was ineffective where the bills of

information, all discovery, and testimony at the preliminary hearing described a robbery where
defendant threatens another with or intentionally puts him in fear of serious bodily injury, but the
bill of information listed 3701(a)(l)(i), which is a robbery where he inflicts serious bodily injury.
The answer is that no, in this instance, counsel was not ineffective because there was no
prejudice to Appellant.
When evaluating claims of ineffective assistance of counsel, it is well-settled that counsel
is presumed to be effective. Com. v. Lesko, 15 A.3d 345, 380 (Pa. 2011). To establish
ineffectiveness under the PCRA, an Appellant must demonstrate that: (1) the underlying claim is
of arguable merit; (2) counsel’s course of conduct was without any reasonable basis designed to
effectuate his client’s interest; and (3) he was prejudiced by counsel’s ineffectiveness. Com. v.
Lauro, 2003 PA Super 80, 819 A.2d 100,105-06 (2003). The Court must reject the
ineffectiveness claim if an Appellant fails to satisfy any prong of the test. Com. v. Fulton, 830
A.2d 567, 572 (Pa. 2003).
Additionally, courts are not required to analyze the elements of an ineffectiveness claim
in any particular order of priority; instead, if a claim fails under any necessary element of the
Strickland test, the court may proceed to that element first. Lesko, 15 A.3d at 374.
5

APP 30

a. Robbery Conviction
Appellant’s first three claims of ineffectiveness of counsel relate to his conviction for
robbery under 18 Pa. C.S. § 3701(a)(l)(i), which provides that a person commits robbery if, in
the course of committing theft, he “inflicts serious bodily injury upon another.” He claims
trial/appellate counsel was ineffective for failing to identify the correct subsection of the robbery
statute that formed the basis of the charge and conviction, and subsequently failing to move for
an acquittal or properly execute an appeal. These claims fail because Appellant fails to show the
requisite prejudice.
Prejudice in the context of ineffective assistance of counsel means establishing that there
is a reasonable probability that, but for counsel’s alleged errors, the outcome of the trial would
have been different. Commonwealth v. Bond, 819 A.2d 33,42 (2002). The inquiry here is if
counsel had recognized the error on the bills of information, either before or during the trial, is
there a reasonable probability that the outcome would have been different? The answer is no.
Counsel’s error was failing to recognize that the facts about his client’s crime did not
match the subsection listed on the bills of information. Had counsel brought this to the court’s
attention, the court would have looked to Rule 564 and the line of cases that address it for
guidance. Pa. R. Crim. P. 564.
At the outset, the court notes that the purpose of the bill of information is to provide a
criminal defendant sufficient notice to prepare a defense. An information is not to be read in an
overly technical form. Commonwealth v. Morales, 669 A.2d 1003,1006-7 (Pa. Super. 1996). A
defendant is only entitled to relief when an error misleads him as to the charges against him,

6

APP 31

\

precludes him from anticipating the Commonwealth’s proof, or impairs a substantial right.
Commonwealth v. McIntosh, 476 A.2d 1316,1321 (Pa. Super. 1984).
Furthermore, Rule 564 provides: “The court may allow an information to be amended,
provided that the information as amended does not charge offenses arising from a different set of
events and that the amended charges are not so materially different from the original charge that
the defendant would be unfairly prejudiced. Upon amendment, the court may grant such
postponement of trial or other relief as is necessary in the interests of justice.” Pa. R. Crim. P.
564.
“The purpose of Rule 564 is to ensure a defendant is fully apprised of the charges, and to
avoid prejudice by prohibiting the last minute addition of alleged criminal acts of which the
defendant is uninformed.” Commonwealth v. Duda, 831 A.2d 728, 732 (Pa.Super. 2003). The
test to be applied is:
[Wjhether the crimes specified in the original indictment or information involve the
same basic elements and evolved out of the same factual situation as the crimes
specified in the amended indictment or information. If so, then the defendant is
deemed to have been placed on notice regarding his alleged criminal conduct. If,
however, the amended provision alleges a different set of events, or the elements or
defenses to the amended crime are materially different from the elements or
defenses to the crime originally charged, such that the defendant would be
prejudiced by the change, then the amendment is not permitted.
Commonwealth v. Davalos, 779 A.2d 1190,1194 (Pa.Super.2001) (citation omitted).
Keeping in mind that the purpose of Rule 564 is to place a defendant on notice regarding
his alleged criminal conduct so he has a fair opportunity to prepare a defense, Appellant’s
arguments of ineffectiveness fail. Yes, a mistake was made as to the subsection of the robbery

7

APP 32

\
I

statute, but to offer Appellant relief on that basis, under the facts of this case, would be to elevate
form over substance.
Factors to consider in determining whether a defendant was prejudiced by an amendment
include:
I

(1) whether the amendment changes the factual scenario supporting the charges; (2)
whether the amendment adds new facts previously unknown to the defendant; (3) whether the
entire factual scenario was developed during a preliminary hearing; (4) whether the description
of the charges changed with the amendment; (5) whether a change in defense strategy was
necessitated by the amendment; and (6) whether the timing of the Commonwealth s request for
amendment allowed for ample notice and preparation.
Com. v. Grekis, 411 Pa. Super. 513, 601 A.2d 1284, 1292 (1992).
Applying the instant set of facts to the above factors it is clear that Appellant was not

I

s
t

I

S
I
\

prejudiced by the error of subsection because (1) the factual scenario supporting the charges
never changed; (2) no new facts were added that were previously unknown to the defendant; (3)
the entire factual scenario was developed not only during a preliminary hearing, but also through
the discovery that was turned over to Appellant on May 21,2013 and included police interviews
with each of the three victims, in addition to Corey Battle and Appellant; (5) the Commonwealth
tried the case, and defendant defended the case as if the bills of information had already been
amended to reflect a threat of serious bodily injury; and (6) it is immaterial that the
Commonwealth failed to amend the information, as Appellant had ample notice and preparation
that the case was about him threatening serious bodily harm, as not only were those the facts at
the preliminary hearing, and in the discovery, but he was also charged with terroristic threats. So
even if the court found that subsection (a)(l)(i) was materially different than subsection

1

8

APP 33

i

\

(a)(l)(ii), Appellant still cannot show prejudice because he was placed on notice regarding his
alleged criminal conduct, and had a fair opportunity to prepare a defense.
In this instance, had counsel caught the error in subsection, this Court would have
allowed the Commonwealth to change the information based on the above analysis. This would
have corrected a technical error, but would not have changed the outcome of the trial. If defense
counsel had moved for an acquittal on that basis, this Court would have denied that motion, and
allowed the Commonwealth to amend the information, based on the above analysis. Had
appellate counsel pointed out the error of subsection on direct appeal, the Superior Court would
have gone through the above analysis, and likely upheld the conviction because the fundamental
principle of fairness was upheld and defendant was not prejudiced.
Because there is not a reasonable probability that the outcome would have changed had
trial/appellate counsel realized the mistaken robbery subsection, Appellant has not demonstrated
prejudice, and his ineffectiveness claims fail.

b. Conspiracy Conviction
Appellant makes similar arguments with respect to the conspiracy charge: that counsel
was ineffective for failing to identify the correct robbery subsection that the conspiracy reflected,
and therefore ineffective for failing to move for an acquittal of the conspiracy charge on that
basis, and for failing to properly execute the direct appeal of the conspiracy conviction.

2 In addition, both subsection (a)(l)(i) and subsection (a)(l)(ii) are 1st degree felonies, and the court used the
Offense Gravity Score of 10 for sentencing, which is the correct score for threatening serious bodily injury.

9

APP 34

As stated above, the purpose of the bill of information is to provide a criminal defendant
sufficient notice to prepare a defense. An information is not to be read in an overly technical
form. Commonwealth v. Morales, 669 A.2d 1003,1006-7 (Pa. Super. 1996). A defendant is only
entitled to relief when an error misleads him as to the charges against him, precludes him from
anticipating the Commonwealth’s proof, or impairs a substantial right. Commonwealth v.
McIntosh, 476 A.2d 1316,1321 (Pa. Super. 1984).
The Commonwealth notified Appellant of the facts it intended to prove at trial. The
discovery packet included various accounts of how Appellant worked in conceit with Corey
Battle to rob the victims at gunpoint. In addition, at the preliminary hearing, attended by both
Appellant and Corey Battle, the witnesses testified to Appellant working with Cory Battle to rob
them at gunpoint. N.T. 4/2/13 at 4-8,14-18. The witnesses testified at trial in conformance to
these statements. Given these consistent accounts, Appellant was not misled as to the charges
against him, not precluded from anticipating the Commonwealth’s proof, and no substantial right
was impaired.
Because Appellant would not have been entitled to dismissal of the conspiracy charges
against him based on the citation of the wrong subsection of the robbery statute in the bills of
information, or his assertion that the conspiracy charge was too vague, he has failed to establish
that his counsel was ineffective, as counsel is not ineffective for failing to raise a meritless claim.
CONCLUSION
Because Appellant failed to demonstrate prejudice or arguable merit, his ineffective
assistance of counsel claims fail. As there is no material fact at issue, the PCRA Court properly

10

APP 35

.«

dismissed the petition without an evidentiary hearing. As such, the PCRA petition lacks merit,
and the dismissal of his petition should be affirmed.
BY THE COURT:

DIANA L. ANHALT, J.

DATE: March 12,2019

s
|

i

i
|
i

I
£
S

11

APP 36

i

i

PROOF OF SERVICE
I hereby certify that on the date set forth below, I caused an original copy of the Judicial
Opinion to be served upon the persons at following locations, which service satisfies the
requirements of Pa.R.A.P. 122:
Thomas Ferrant
1735 Market St, Suite 3750
Philadelphia, PA 19103
(first class mail)

?

I
i

I

Appeals Unit
Office of the District Attorney
Three South Penn Square
Philadelphia, PA 19107
(first class mail)

i

I
i

1
i

Melvin Stills
#NG3738
SCI Fayette
421 Labelle Rd
La Belle, PA 15450
(first class mail)

i

Date:

3W

By:
Honorable Diana L. Anhalt

12

APP 37

\

IN THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT
COMMONWEALTH OF PENNSYLVANIA,

No. 241 EAL 2020

Respondent
Petition for Allowance of Appeal
from the Order of the Superior Court
v.
MELVIN STILLS,
Petitioner
ORDER

PER CURIAM
AND NOW, this 12th day of November, 2020, the Petition for Allowance of Appeal
is DENIED.

A True Copy
As Of 11/12/2020

Aftpcf*

i

Patricia A. JornTSon
Chief Clerk
Supreme Court of Pennsylvania

APPENDIX E

APP 38

\

J-S01033-16
non­

PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37

COMMONWEALTH OF PENNSYLVANIA

in

THE SUPERIOR COURT OF
PENNSYLVANIA '

Appellee

v.
MELVIN STILLS
No. 2539 EDA 2014

Appellant

Appeal from the Judgment of Sentence August 7, 2014
In the Court of Common Pleas of Philadelphia County
Criminal Division at No(s): CP-51-CR-0004532-2013

BEFORE: GANTMAN, P.J., MUNDY, J., and MUSMANNO, J.
FILED JANUARY 06, 2016

MEMORANDUM BY GANTMAN, P.J.:
Appellant,

Melvin Stills, appeals from the judgment of sentence

entered in the Philadelphia County Court of Common Pleas, following his
bench trial convictions for three counts each of robbery, terroristic threats,
and theft by unlawful taking or disposition, and one count each of criminal
conspiracy, firearms not to be carried without a license, carrying firearms on
public streets or public property in Philadelphia, and persons not to possess
firearms.1 We affirm.
In its opinion, the trial court fully sets forth the relevant facts and
procedural history of this case,

Therefore, we have no reason to restate

them. We clarify only that on August 7, 2014, the court sentenced Appellant

1 18 Pa.C.S.A. §§ 3701; 2706; 3921; 903; 6106; 6108; 6105, respectively.

APPENDIX F

APP 39

J-S01033-16

to an

aggregate term of fifteen (15) to thirty (30) years' imprisonment, plus

twelve (12) years'probation.2
Appellant raises two issues for our review:
WHETHER THE EVIDENCE WAS SUFFICIENT TO CONVICT
APPELLANT OF THREE COUNTS OF ROBBERY (FI),
CONSPIRACY AND RELATED CHARGES WHEN THE
A
BEYOND rtI_
FAILED
TO
PROVE
COMMONWEALTH
REASONABLE DOUBT THAT THERE WAS A THREAT OF
SERIOUS BODILY INJURY AND/OR ANY SERIOUS INJURY
TO ANY OF THE VICTIMS?
WHETHER THE EVIDENCE WAS SUFFICIENT TO CONVICT
APPELLANT OF THREE COUNTS OF ROBBERY, CONSPIRACY
AND RELATED CHARGES SINCE THE COMMONWEALTH
FAILED TO PROVE BEYOND A REASONABLE DOUBT THAT
APPELLANT WAS THE ONE WHO COMMITTED THE
ROBBERIES?
(Appellant's Brief at 4).
After a thorough review of the record, the briefs of the parties, the
applicable law, and the well-reasoned opinion of the Honorable Diana L.
Anhalt, we conclude Appellant's issues merit no relief.

The trial court's

opinion comprehensively discusses and properly disposes of the questions
presented.

(See Trial Court Opinion, filed May 1, 2015, at 4-9 (un­

paginated)) (finding: (1) Victims Mr. Jackson and Ms. Sowell testified that
Appellant pointed gun at third victim,'Mr. Hargrove, and took Mr. Hargroves

2 In addition to the crimes listed on the first page of the trial court's opinion,
the court also convicted Appellant of three counts each of terroristic threats
and theft by unlawful taking or disposition. Further, the events which gave
rise to Appellant's convictions took place on January 29, 2013.

- 2 -

APP 40

J-S01033-16
cell phone; then, Appellant pointed gun at Mr. Jackson and Ms. Sowell and
threatened to shoot them; evidence was sufficient to sustain Appellant's
robbery convictions related to all three Victims,3 where Appellant threatened
Mr. Jackson and Ms. Sowell during course of theft and intentionally put all
Victims in fear of serious bodily injury;4 (2)5 five minutes after robbery, Ms.
Sowell and Mr.

Jackson positively identified Appellant as man who robbed

them; Ms. Sowell and Mr. Jackson testified at trial they were certain
Appellant was perpetrator; Mr. Jackson testified that Appellant was very
close to him during encounter and wore nothing to cover his face; Victims
also testified Appellant was riding distinct bike; police spotted Appellant
riding bike matching unique description moments after receiving call that
robbery was in progress; police also recovered gun Appellant had discarded
that

matched

Ms.

Sowell's

description!

of gun

used;

Commonwealth

3 Appellant's cohort searched Mr. Jackson and Ms. Sowell but took no
property from those victims.
4 We decline Appellant's invitation to "reconsider the robbery statute" to hold
that certain gunpoint robberies can constitute second-degree felonies
instead of first-degree felonies.
Appellant concedes he lacks any legal
authority to support his position.
5 Notwithstanding his statement of questions presented, Appellant
challenges only the sufficiency of the evidence to sustain his robbery
convictions. Appellant makes no argument whatsoever in support of his
second issue on appeal.
Thus, 1 Appellant has abandoned issue two.
Moreover, even if Appellant had properly preserved his second issue, we
would affirm on the basis of the trial court's opinion.

- 3 -

APP 41

■V

J-S01033-16
presented

sufficient evidence

to

prove

Appellant

was

perpetrator).6

Accordingly, we affirm on the basis of the trial courts opinion.
Judgment of sentence affirmed.
Judgment Entered.

Joseph D. Seletyn, Es<^
Prothonotary

Date: 1/6/2016

6 On page three of the court's opinion, the court states: "Officer Rosenbaum
noticed a bulge on Appellant's ride hip area." No doubt the court meant
right hip area.
-4-

APP 42

FILED
MAY 01 2015

IN THE COURT OF COMMON PLEAS
FOR THE COUNTY OF PHILADELPHIA
CRIMINAL DIVISION TRIAL
COMMONWEALTH
OF PENNSYLVANIA
v.

Criminal Appeals Unit
First Judicial District of PA

NO.: Cg-51“CR-OfflM330-20l3
: CP-51-CR-0004532-2013
Superior Court No.:
2539 EDA 2014

MELVIN STILLS
CP-51 -CR-Q004532-M13 Comm . v. Stills. Melvin ;-------

OPINION
7288973461

ANHALT, J.

Appellant in the above-captioned matter appeals the trial court’s judgment regarding
Appellant’s convictions for Robbery, a felony in the first degree (FI). The trial court submits the
following Opinion in accordance with the requirements of Pa.R.A.P. 1925(a). For the reasons
set forth herein, the trial court holds that the judgment should be affirmed.

PROCEDURAL HISTORY
On January 29, 2013, police arrested and charged Appellant, Melvin Stills, with three
counts of Robbery, (FI), Conspiracy (FI), and several Violations of the Uniform Firearms Act
(VUFA). On May 30, 2014, Appellant waived his right to a jury and proceeded to a bench trial
before the trial court. On that date, the trial court found Appellant guilty of three counts of
Robbery, (FI), Conspiracy (FI), and VUFA §6105 (F2), §6106 (F3) and §6108 (Ml).
On August 7, 2014, the trial court sentenced Appellant to ten to twenty years of state
custody on each charge of Robbery and Conspiracy, five to ten years state consecutive for VUFA
§6105, seven years consecutive state probation for VUFA §6106, and five years consecutive
state probation for VUFA §6108.

APPENDIX G

APP 43

* •>

Appellant filed this timely appeal of the trial court decision on August 29, 2014.
Appellant filed a 1925(b) statement on September 23, 2014. Appellant argues that the evidence
was insufficient to sustain his conviction for Robbery because the Commonwealth failed to
prove there was a threat of serious bodily injury to any of the victims.

Appellant also argues

that the evidence was insufficient to sustain his convictions for three counts of Robbery (FI)
because the Commonwealth failed to meet its burden and prove that Appellant was the one who
committed the Robberies.
FACTUAL HISTORY
On January 29, 2013 Appellant robbed Tahir Jackson, Dereka Sowell, and James
Hargrove at gun point at the intersection of Fairhill St. and W. Fisher Ave. in Philadelphia,
Pennsylvania. (N.T., 5/30/14, pp. 11-12, 45). While walking to the Rite Aid, Mr. Jackson
observed two men on bikes coming towards him. (N.T., 5/30/14, p. 13). Mr. Jackson testified
that one man was tall, wearing a black jacket and a red hoodie riding a black and silver
Mongoose bike. (N.T., 5/30/14, p. 32). The other man was shorter, wearing a black hoodie with a
black jacket and riding a pink and purple little girl’s bike. (N.T., 5/30/14, pp. 32, 34). Mr.
Jackson identified the shorter male on the pink and purple bike as Appellant. (N.T., 5/30/14, p.
34). As the two men approached, Appellant jumped off the bike, pulled out a gun, and pointed it
at Mr. Hargrove while the other man choked Mr. Jackson from behind. (N.T., 5/30/14, p. 13-14).
Ms. Sowell also testified that Appellant was the one with the gun and the other man choked Mr.
Jackson from behind. (N.T., 5/30/14, p. 45). Mr. Jackson was six to eight feet away from Mr.
Hargrove as the Appellant held a gun on him. (N.T., 5/30/14, p. 15).
Mr. Jackson testified that Appellant told Mr. Hargrove “whatever you got in your pocket,
give it up.” (N.T., 5/30/14, p. 19). Appellant then took Mr. Hargrove’s cell phone. (N.T.,

APP 44

♦ -v

5/30/14, p. 20). Ms. Sowell testified that Appellant pulled a gun on her. (NX, 5/30/14, p. 46).
Appellant threatened Ms. Sowell and said “you need to back up before you get shot.” Id. The
other male then checked Mr. Jackson’s pockets and after finding nothing, pushed Mr. Jackson to
the ground and grabbed Ms. Sowell. (N.T., 5/30/14, pp. 20-21). When Mr. Jackson tried to get
up and defend Ms. Sowell, Appellant pointed the gun at him and said “you don’t want to get
shot.” (N.T., 5/30/14, p. 22). Appellant was standing over Mr. Jackson a few feet away as he
held the gun on him. Id. Both Mr. Jackson and Ms. Sowell testified that Appellant did not have
anything covering his face. (NX., 5/30/14, pp. 24, 50). After finding no items on Ms. Sowell,
Appellant and the other man got back on their bikes and rode off. (N.T., 5/30/14, p. 24).
i

Mr. Jackson ran to Ms. Sowell’s mothers house to call the police who arrived minutes
later. (N.T., 5/30/14, p. 25-26). Police Officer Rosenbaum testified that while surveying the
area for a Robbery in progress, he observed Appellant riding a pink and purple child’s bike along
with another male. (N.T., 5/30/14, p. 58, 61). Officer Rosenbaum noticed a bulge on Appellant’s
ride hip area. Id. When the officer attempted to stop them, they both fled. (N.T., 5/30/14, p. 58).
During the chase, Officer Rosenbaum observed Appellant discard a firearm from his right hip
area, the same area he saw the bulge. (N.T., 5/30/14, pp. 59-60).
Mr. Jackson and Ms. Sowell both testified that Appellant robbed them at gun point.
(N.T., 5/30/14, pp. 29, 55-56). Ms. Sowell testified that the gun used by Appellant was all black
and resembled a gun that police carry. (NX, 5/30/14, pp. 45-46). Officer Rosenbaum testified
that Appellant discarded a firearm that he later recovered. (NX, 5/30/14, pp. 58-59). The gun
was a black Beretta handgun. Id.

APP 45

4 >

DISCUSSION
Appellant argues that the evidence was insufficient to sustain his conviction for Robbery
because the Commonwealth failed to prove there was a threat of serious bodily injury to any of
the victims. Appellant also argues that the evidence was insufficient to sustain his conviction for
Robbery because the Commonwealth failed to prove that Appellant was the one who committed
the Robberies.
In evaluating a challenge to the sufficiency of the evidence, the reviewing court must
determine, whether viewing all the evidence in a light most favorable to the Commonwealth, the
trier of fact could have found that each element of the offense charges was proved beyond a
reasonable doubt. Commw. v. Lee, 956 A.2d 1024, 1027 (Pa. Super Ct. 2008). This standard
applies whether the evidence presented is circumstantial or direct, provided the evidence links
the accused to the crime beyond a reasonable doubt. Commw. v. Morales, 669 A.2d 1003, 1005
(Pa. Super. Ct. 1996). “Unless the evidence presented at trial is ‘so weak and inconclusive that
as a matter of law, no probability of fact can be drawn from the combined circumstances,’ the
i '
i

verdict should not be disturbed on appeal.” Lee, at 1027-28 (quoting Commw v. Davis, 799 A.2d
860, 866 (Pa. Super. Ct. 2002)).
A person is guilty of Robbery, a felony in the first degree, if in the course of committing
a theft, he “threatens another with or intentionally puts him in fear of immediate serious bodily
injury.” 18 Pa.C.S.A. §3701(a)(l)(ii). The evidence is sufficient to convict a defendant of

I

Robbery under this section if the evidence demonstrates aggressive actions that threatened the

!

victim’s safety. Commw v. Hansley, 24 A.3d 410, 416 (Pa. Super. Ct. 2011); Commw. v. Jannett,
58 A.3d 818, 821-22 (Pa. Super. Ct. 2012); Commw. v. Valentine,101 A.3d 801, 807 (Pa. Super.
Ct. 2014). For the purposes of §3701(a)(l)(ii), the court must focus on the nature of the threat

APP 46

posed by the assailant and whether he reasonably placed a victim in fear of immediate serious
bodily injury. Hansley, 24 A.3d at 416\Jannett, 58 A.3d at 821-22.
Appellant’s actions in pointing a gun and threatening a victim were sufficient evidence to
convict appellant of Robbery. Commw. v. Valentine, 101 A.3d 801 (Pa. Super. Ct. 2014). In
Valentine, Ms. Gibbs was waiting for a bus when appellant approached her from behind with a
gun. Id. at 804. Appellant point a handgun at Ms. Gibbs, threatened to shoot her, demanded
money, and took her purse and phone. Id. Appellant was arrested and charged with Robbery. Id.
At trial, a jury found appellant guilty of Robbery and appellant appealed. Id.. The court upheld
the conviction finding the evidence was sufficient to convict appellant of Robbery. Id. at 807.
The court determined that appellant’s actions in pointing a gun at Ms. Gibbs and threatening to
shoot her would have placed a reasonable person in fear of serious bodily. Id.
In the present case, the evidence presented at trial was sufficient to establish that
Appellant placed Mr. Jackson and Ms. Sowell in fear of serious bodily injury.

Appellant

pointed a gun at Ms. Sowell and said, “You need to back up before you get shot.” (N.T.,
5/30/14, p. 46). Appellant also pointed a gun at Mr. Jackson and said, “You don’t want to get
shot.” (N.T., 5/30/14, p. 22). Appellant’s actions of pointing a gun and threatening Mr. Jackson
and Ms. Sowell reasonably put them in fear of serious bodily injury. Valentine, 101 A.3d at 804.
Terrorizing multiple people during the course of committing one theft is sufficient to
support Robbery convictions for each of those persons. Commw. v. Gilliard, 850 A.2d 1273,
1275 (Pa. Super. Ct. 2004). In Gilliard, a defendant appealed a conviction of five counts of
robbery alleging the evidence was insufficient because he only committed one theft. Id. at 1275.
The Pennsylvania Superior Court held that the defendant threatened to inflict serious bodily
injury on all four patrons when he pointed a gun at them and forced them to the back room. Id.

APP 47

0 I

at 1276-1277. The evidence was sufficient to support defendant’s convictions because the
defendants’ actions were sufficiently threatening to all of the patrons at the bar and placed them
in fear of serious bodily injury. Id.
Appellant’s single theft is sufficient to support three convictions for Robbery. Like in
Gilliard, the Appellant here threatened multiple people although he committed only a single
theft. 850 A.2d at 1276. Both Mr. Jackson and Ms. Sowell testified that Appellant pointed a gun
at Mr. Hargrove and took his cell phone. (N.T., 5/30/14, pp. 13, 46). Afterwards, Appellant

!

pointed the gun at Mr. Jackson and Ms. Sowell and threatened them. Id. The evidence is
sufficient to convict Appellant of three counts of Robbery because Appellant intentionally put
Mr. Jackson, Ms. Sowell, and Mr. Hargrove in fear of serious bodily injury when he pointed a
gun at them and threatened them.
Appellant also contends that the evidence was insufficient to sustain his conviction for
Robbery because the Commonwealth failed to prove that Appellant was the one who committed
the robberies. Evidence of identification need not be positive and certain to sustain a conviction.
Commw. v. Orr, 38 A.3d 868, 874 (Pa. Super. Ct. 2011). Identification evidence, which is solely
based on similar height, coloration, and clothing, is not enough to convict a defendant as the
perpetrator of a crime. Commw. v. Crews, 436 Pa. 346 (1970).

Although common items of

clothing and general physical characteristics are usually insufficient to support a conviction, such
evidence can be used as other circumstances to establish the identity of a perpetrator. Orr, 38
A.3d at 874. Any indefiniteness and uncertainty in identification testimony goes to weight. Id.
Circumstantial evidence alone is sufficient to convict a person; direct evidence is not absolutely
needed. Commw. v. Smith, 283 Pa. Super 360,423 A.2d 1296 (1981).

!

APP 48

Appellant’s contention that the Commonwealth failed to prove that Appellant committed
the robberies is without merit. In assessing whether the totality of the circumstances supports an
independent basis for identification of a defendant as perpetrator, the following factors are to be
considered:
.. .the opportunity of the witness to view the criminal at the time
of the crime, the witness’ degree of attention, the accuracy of his
prior description of the criminal, the level of certainty
demonstrated at the confrontation, and the time between the
crime and the confrontation.
Commw. v. Edwards, 762 A.2d 382, 391 (Pa. Super. Ct. 2000). The most important factor is the
opportunity of the witness to view the suspect at the time of the crime. Id. Five minutes after the
Robbery occurred, both Ms. Sowell and Mr. Jackson positively identified Appellant as the guy
who robbed them. (N.T., 5/30/14, pp. 28-29, 39, 49). At trial, both victims testified that they
were certain that Appellant was the guy who robbed them. (N.T., 5/30/14, pp. 13-14, 46-47). Mr.
Jackson testified that he was about six to eight feet away from Appellant during the initial
encounter. (N.T., 5/30/14, p. 15). Mr. Jackson also testified that when Appellant approached him
with the gun, he was standing right over him. (N.T., 5/30/14, p. 24) Mr. Jackson could see
Appellant entire face because Appellant did not have anything covering his face. (N.T., 5/30/14,
pp. 24, 33, 35).
The Commonwealth also presented evidence of a distinct bike that Appellant was
identified as riding. Testimony by Mr. Jackson and Ms. Sowell indicates that Appellant was
riding a purple and pink child’s bike. (N.T., 5/30/14, pp. 32, 34, 53). Additionally, Officer
Rosenbaum spotted the Appellant riding a pink and purple child’s bike moments after receiving a
call for Robbery in progress. (N.T., 5/30/14, pp. 58, 61). Lastly, the Commonwealth presented
evidence of a gun that was used during the Robbery. Ms. Sowell testified that the gun used by
Appellant was all black and resembled a gun that police carry. (N.T., 5/30/14, pp. 45-46).

APP 49

I

•* <,

Officer Rosenbaum testified that he observed Appellant discard a firearm in the alley during his
chase. (N.T., 5/30/14, pp. 58-59).

That gun was recovered and identified as a black Beretta

handgun. Id.
Mr. Jackson’s testimony that Appellant had on a black hoodie when Appellant was
arrested wearing a white hoodie is not dispositive but simply goes to weight. Orr, 38 A.3d at
874. The Robbery took place at night when it was dark outside. (N.T., 5/30/14, p. 31).
The Commonwealth has presented enough evidence to prove beyond a reasonable doubt
that Appellant committed these crimes. Crews, 436 Pa. at 349; Edwards, 762 A.2d at 391; Orr,
38 A.3d at 874. The Commonwealth presented evidence in the form of testimony of two victims
of the Robbery who gave identical accounts about what happened on January 14, 2013. (N.T.,
5/30/14, pp. 13, 20, 45, 48). Both victims testified that Appellant took Mr. Hargrove’s cell phone
and held them at gun point. (N.T., 5/30/14, pp. 37, 52). Additionally, both victims and Police
Officer Rosenbaum testified that Appellant was riding a pink arid purple child’s bike. (N.T.,
5/30/14, pp. 32, 34, 53, 58, 61). The combination of the evidence presented by, the
Commonwealth is sufficiently reliable to convict Appellant.
Therefore, there is sufficient evidence to convict Appellant of Robbery, a felony in the
first degree (FI).

APP 50

)
k

H"

CONCLUSION
For the foregoing reasons, Appellant's three convictions for Robbery (FI) should be
affirmed.
BY THE COURT:

DIANA ANHALT, J.
April 29, 2015

l

;

APP 51

•f
PROOF OF SERVICE
I hereby certify that on the date set forth below, I caused an original copy
of the Judicial Opinion to be served upon the persons at the following locations, which
service satisfies the requirements of Pa. R.A.P. 122:
Douglas N. Stern, Esquire
1420 Walnut Street, Suite 1201
Philadelphia, PA 19102
Hugh Bums, Esquire
Philadelphia District Attorney’s Office
Three South Penn Square
Philadelphia, PA 19107

: W9

Date:

By
Diana Anhalt, Judge

APP 52

